No. _________
IN THE SUPREME COURT OF THE UNITED STATES

JOHN CHRISTOPHER BADGETT,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of the United States Court of Appeals for the
Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas.
Appendix C Judgment and Sentence of the United States District Court for the
District of Idaho.

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10146
UNITED STATES OF AMERICA,

FILED
April 28, 2020
Lyle W. Cayce
Clerk

Plaintiff - Appellee
v.
JOHN CHRISTOPHER BADGETT,
Defendant - Appellant

Appeals from the United States District Court
for the Northern District of Texas
Before OWEN, Chief Judge, and HIGGINBOTHAM and WILLETT, Circuit
Judges.
PATRICK E. HIGGINBOTHAM, Circuit Judge:
Appellant John Christopher Badgett was sentenced to 48 months’
imprisonment after he violated the terms of his supervised release. On appeal,
he challenges the constitutionality of 18 U.S.C. § 3583(g), which mandates a
term of imprisonment for any offender who violates certain conditions of
supervised release relating to drugs and firearms. Badgett also contends that
his revocation sentence is substantively unreasonable. Finding no error, we
affirm.

No. 19-10146
I.
In 2009, Badgett pleaded guilty in the District of Idaho to six counts of
armed bank robbery. 1 He received six concurrent 108-month terms of
imprisonment, with six concurrent five-year terms of supervised release to
follow. Badgett was released from prison in 2015, and jurisdiction over his
supervised release was transferred to the Northern District of Texas in 2016.
In July of 2018, the probation office reported that Badgett had violated
the terms of his supervised release by (1) consuming alcohol in a motor vehicle,
a state offense; (2) absconding to live in Alaska without the permission of his
probation officer; and (3) failing to report for a mandatory drug test. The
probation office calculated an advisory imprisonment range of five to eleven
months on each of Badgett’s six terms of supervised release, 2 though it noted
the district court had discretion to impose up to three years each. 3 It also noted
that incarceration for the drug-testing violation would be mandatory under
18 U.S.C. § 3583(g), which requires the district court to revoke supervised
release and impose “a term of imprisonment” on any defendant who:
(1) possesses a controlled substance . . . ;
(2) possesses a firearm, as such term is defined in section 921 of
this title, in violation of Federal law, or otherwise violates a
condition of supervised release prohibiting the defendant from
possessing a firearm;
(3) refuses to comply with drug testing imposed as a condition of
supervised release; or

The Idaho proceeding consolidated three separate indictments from Idaho,
California, and Wyoming, which together charged Badgett with robbing seven banks across
six states in the fall of 2007. Badgett consented to transfer the California and Wyoming cases
to Idaho, where he pleaded guilty to six charges of armed bank robbery in exchange for the
dismissal of three other counts. The District of Idaho sentenced Badgett on all six counts and
issued a single written judgment of conviction.
2 See U.S.S.G. § 7B1.4(a).
3 See 18 U.S.C. § 3583(e)(3) (providing a maximum revocation sentence of three years
“if the offense that resulted in the term of supervised release is . . . a class B felony,” a category
that includes armed bank robbery).
1

2

No. 19-10146
(4) as a part of drug testing, tests positive for illegal controlled
substances more than 3 times over the course of 1 year. 4
Pursuant to the probation office’s report, the Government moved to
revoke Badgett’s supervised release. At a revocation hearing on January 31,
2019, the district court advised Badgett that if he pleaded true to the
violations, his supervised release would be revoked and he would be
reincarcerated. After affirming that he understood the consequences of his
plea, Badgett “admit[ted] the truthfulness of each of the allegations” against
him. The district court sentenced Badgett to eight months on each term of
supervised release—the middle of his five-to-eleven-month Guidelines range.
The sentences were to run consecutively, for a total of 48 months’
imprisonment. The court did not order any additional terms of supervision.
Badgett now appeals his revocation sentence on two grounds. First, he
contends that 18 U.S.C. § 3583(g)’s mandatory-imprisonment provision is
unconstitutional under the Supreme Court’s decision in United States v.
Haymond. 5 Second, Badgett argues that his sentence is substantively
unreasonable “because it was greater than necessary to achieve the purposes
of sentencing.”
II.
A.
Because Badgett raises his constitutional challenge for the first time on
appeal, our review is for plain error. 6 Under the four-prong framework of plainerror review, Badgett must demonstrate (1) an error (2) that is “clear or
obvious” and that (3) “affected [his] substantial rights.” 7 If the first three
prongs are satisfied, we may exercise our discretion to correct the error only if
Id. § 3583(g)(1)–(4).
139 S. Ct. 2369 (2019).
6 United States v. Williams, 847 F.3d 251, 254 (5th Cir. 2017) (When an objection is
“admittedly unpreserved, we review for plain error.”).
7 Puckett v. United States, 556 U.S. 129, 135 (2009).
4
5

3

No. 19-10146
it (4) “seriously affects the fairness, integrity or public reputation of judicial
proceedings.” 8
B.
Badgett contends that the district court committed plain error by
sentencing him under an unconstitutional statute. In his view, 18 U.S.C.
§ 3583(g)—the provision that required the district court to impose a term of
imprisonment upon finding that he failed to comply with mandatory drug
testing—violates the Fifth and Sixth Amendments by “failing to afford [the
defendant] the right to a jury trial to determine the truth of the allegations
against him.” This argument relies on United States v. Haymond, a 2019
decision in which the Supreme Court struck down 18 U.S.C. § 3583(k), a
separate provision of the federal supervised-release statute that imposed a
five-year minimum sentence on convicted sex offenders who committed certain
specified sex offenses while on supervised release. 9
Five Justices agreed that § 3583(k) was unconstitutional. 10 Because only
three joined Justice Gorsuch’s plurality opinion, however, Justice Breyer’s
narrower concurrence controls. 11 Justice Breyer emphasized that revocation
“is typically understood as ‘part of the penalty for the initial offense’”—and

8

(1993)).

Id. (internal alterations omitted) (quoting United States v. Olano, 507 U.S. 725, 736

139 S. Ct. at 2373 (plurality opinion). The relevant portion of § 3583(k) provided:
If a defendant required to register under the Sex Offender Registration and
Notification Act commits any criminal offense under chapter 109A, 110, or 117,
or section 1201 or 1591, for which imprisonment for a term longer than 1 year
can be imposed, the court shall revoke the term of supervised release and
require the defendant to serve a term of imprisonment . . . not less than 5 years.
10 Although Haymond had not been decided at the time of Badgett’s revocation
proceeding, relief is not automatically barred since “newly announced rules” apply to cases
pending on direct appeal. United States v. Knowles, 29 F.3d 947, 951 (5th Cir. 1994) (citing
Griffith v. Kentucky, 479 U.S. 314 (1987)).
11 See Marks v. United States, 430 U.S. 188, 193 (1977) (“When a fragmented Court
decides a case and no single rationale explaining the result enjoys the assent of five Justices,
the holding of the Court may be viewed as that position taken by those Members who
concurred in the judgments on the narrowest grounds.” (internal quotation marks omitted)).
9

4

No. 19-10146
therefore not subject to the Sixth Amendment’s jury-trial right. 12 However,
three features of this particular provision, “considered in combination,” led him
“to think it is less like ordinary revocation and more like punishment for a new
offense, to which the jury right would typically attach” 13:
First, § 3583(k) applies only when a defendant commits a discrete
set of federal criminal offenses specified in the statute. Second,
§ 3583(k) takes away the judge’s discretion to decide whether
violation of a condition of supervised release should result in
imprisonment and for how long. Third, § 3583(k) limits the judge’s
discretion in a particular manner: by imposing a mandatory
minimum term of imprisonment of “not less than 5 years” upon a
judge’s finding that a defendant has “commit[ted] any” listed
“criminal offense.” 14
Badgett contends that § 3583(g) is unconstitutional under Haymond
because it shares two of § 3583(k)’s problematic features: It applies only when
a defendant engages in certain specified behaviors, such as failing to comply
with mandatory drug testing, and it removes the district court’s discretion to
determine whether a term of imprisonment is appropriate. Even assuming
these analogies are apt 15 and disregarding the Haymond plurality’s explicit
refusal to “express a view on . . . § 3583(g),” 16 Badgett’s argument is unavailing.
As we have repeatedly observed, “[b]ecause there currently is no caselaw from
either the Supreme Court or this court extending Haymond to § 3583(g)

Haymond, 139 S. Ct. at 2386 (Breyer, J., concurring in the judgment) (quoting
Johnson v. United States, 529 U.S. 694, 700 (2000)).
13 Id.
14 Id.
15 Because we review only for plain error, we need not decide the merits of Badgett’s
argument for extending Haymond. We note, however, that unlike the offenses specified by
§ 3583(k), the four drug- and firearms-related violations that trigger § 3583(g) are not “a
discrete set of federal criminal offenses.” Id. Rather, as the Government explained, § 3583(g)
“lists behaviors that the court expects former prisoners to avoid during supervision, some of
which cover noncriminal conduct.” Besides, even under the reading most favorable to
Badgett, § 3583(g) shares only two of the three features identified by Justice Breyer as
problematic in conjunction.
16 Id. at 2382 n.7 (plurality opinion).
12

5

No. 19-10146
revocations,” the district court could not have committed any “clear or obvious”
error in applying the statute. 17
III.
A.
Badgett next contends that his 48-month revocation sentence is
substantively unreasonable. Because Badgett preserved this objection by
raising it in the district court, we review “for an abuse of discretion, examining
the totality of the circumstances.” 18 A revocation “sentence is substantively
unreasonable if it (1) does not account for a factor that should have received
significant weight, (2) gives significant weight to an irrelevant or improper
factor, or (3) represents a clear error of judgment in balancing the sentencing
factors.” 19 A revocation sentence “within the bounds of the [defendant’s]
Guideline range . . . is presumptively reasonable.” 20
B.
Badgett fails to identify any objective error in the district court’s withinGuidelines revocation sentence. He argues only that the court should have
United States v. Rendon, No. 19-10653, 2020 WL 1230310, at *1 (5th Cir. Mar. 12,
2020) (unpublished) (per curiam); see United States v. Woods, 793 F. App’x 340, 340–41(5th
Cir. 2020) (unpublished) (per curiam); United States v. Carvajal, 792 F. App’x 351, 352 (5th
Cir. 2020) (unpublished) (per curiam); United States v. Chandler, 789 F. App’x 492, 493 (5th
Cir. 2020) (unpublished) (per curiam). We further note that because Badgett pleaded true to
the supervised-release violations, he could not satisfy the third prong of plain-error review—
which requires a showing that the alleged error “affected the outcome of the district court
proceedings”—much less the fourth, even if there were a clear error. United States v. Mares,
402 F.3d 511, 521 (5th Cir. 2005) (quoting Olano, 507 U.S. at 734).
18 United States v. Warren, 720 F.3d 321, 332 (5th Cir. 2013).
19 Id. (internal quotation marks omitted) (quoting United States v. Peltier, 505 F.3d
389, 392 (5th Cir. 2007)).
20 United States v. Lopez-Velasquez, 526 F.3d 804, 809 (5th Cir. 2008) (citing Gall v.
United States, 552 U.S. 38, 51 (2007)). Badgett claims that his 48-month aggregate sentence
is “more than four times the top of the advisory guideline range of 5–11 months.” Not so.
Where the district court exercises its discretion to impose consecutive revocation sentences
and each “sentence falls within the advisory range and is consistent with the Guidelines’
policy regarding consecutive sentences,” the aggregate sentence “is entitled to a presumption
of reasonableness.” United States v. Martinez, 676 F. App’x 354, 355 (5th Cir. 2017)
(unpublished) (per curiam); see United States v. Candia, 454 F.3d 468, 471 (5th Cir. 2006).
17

6

No. 19-10146
weighed the sentencing factors more favorably because his violation
“essentially involved . . . living in the wilderness of Alaska, where he worked
hard building cabins and structures and . . . did not commit any new offenses.”
A defendant’s mere disagreement with the district court’s presumptively
reasonable sentence “is not a sufficient ground for reversal.” 21 Moreover, the
record reflects that the district court carefully considered Badgett’s arguments
for leniency, even putting aside its original intention “to sentence him to . . . a
total of 72 months” after hearing of his efforts in Alaska.
IV.
For the foregoing reasons, the revocation of Badgett’s terms of
supervised release and the revocation sentences imposed by the district court
are affirmed.

United States v. Malone, 828 F.3d 331, 342 (5th Cir. 2016); see also United States v.
Hernandez, 876 F.3d 161, 167 (5th Cir. 2017) (explaining that this Court will not “reweigh
the sentencing factors and substitute our judgment for that of the district court”).
21

7

APPENDIX B

Case 4:16-cr-00100-A Document 27 Filed 01/31/19

U.S. DISTRICT COU!rf

DISTRICT132
OF TEXAS
Page NORTHERN
1 of 4 PageID

FILED

'
IN THE UNITED STATES DISTRICT
OURT
NORTHERN DISTRICT OF TEXA
FORT WORTH DIVISION

JAN :l 1 2019

CLERK, U.S. DISTRICT COUllT
B~

UNITED STATES OF AMERICA

§
§

vs.

§
§

JOHN CHRISTOPHER BADGETT

Deputy

NO. 4: 16-CR-100-A
NO. 4:16-CR-101-A
NO. 4:16-CR-102-A

§

JUDGMENT OF REVOCATION AND SENTENCE
Came on to be heard the motions filed by the government in
the above-numbered cases on January 30, 2019, to revoke the terms
of supervised release imposed on defendant, JOHN CHRISTOPHER
BADGETT, on June 4, 2009, by the Honorable Edward J. Lodge,
Judge of the United States District Court for the District of
Idaho in three criminal actions that were combined for plea and
sentencing purposes in cases on Judge Lodge's docket.

Those

cases had Case Nos. CR07-296-001-S-EJL (hereinafter the "296
Idaho Case"), CROB-279-001-S-EJL (hereinafter the "279 Idaho
Case"), and CR09-20-001-S-EJL (hereinafter the "20 Idaho Case")
in the District of Idaho.

As reflected by the Judgment in a

Criminal Case signed by Judge Lodge in those combined cases on
June 16, 2009, defendant received sentences of imprisonment of
180 months as to six counts charging him with armed bank robbery,
to run concurre.ntly, and a term of supervised release of 5 years
as to those six counts, to run concurrently.

Case 4:16-cr-00100-A Document 27 Filed 01/31/19

Page 2 of 4 PageID 133

On May 6, 2016, jurisdiction over those terms of supervised
release was transferred to this court.

The transfer of

supervised release matters in the 296 Idaho Case was docketed in
this court as Case No. 4:16-CR-100-A, the transfer of supervised
release matters in the 279 Idaho Case was docketed in this court
as Case No. 4:16-CR-101-A, and the transfer of supervised release
matters in the 20 Idaho Case was docketed in this court as Case
No. 4:16-CR-102-A.

A separate, but identical, motion to revoke

was filed by the government in each of those three cases on this
court's docket.

The hearing on those motions was combined as to

those cases, and this Judgment of Revocation and Sentence is a
combined judgment as to the three cases.
After having considered the grounds of the government's
motions, the evidence, defendant's admissions, argument of
counsel, and defendant's statement, the court has determined that
such terms of supervised release imposed on defendant should be
revoked and that defendant should be sentenced to a term of
imprisonment of 8 months as to each of the six counts of
conviction, to run consecutively to each other, for a total term
of imprisonment to be served of 48 months.

2

Case 4:16-cr-00100-A Document 27 Filed 01/31/19

Page 3 of 4 PageID 134

The court finds and concludes that:
(a)

Defendant was given, in a timely manner, written

notice of his alleged violations of the terms of supervised
release upon which the motions to revoke are based;
(b)

The motions to revoke the terms of supervised

release were served on defendant in a timely manner prior to
the hearing;
(c)

There was a disclosure to defendant, and his

attorney, of the evidence against defendant; and
(d)

The hearing was held within a reasonable time.

Other findings and conclusions of the court were stated by
the court into the record at the hearing.

The court adopts all

such findings and conclusions as part of this judgment.
In reaching the conclusions and making the determinations
and rulings announced at the hearing, and as stated in this
judgment, the court considered all relevant factors set forth in
18 U.S.C.

§

3553(a) that are proper for consideration in a

revocation context.
The court ORDERS, ADJUDGES, and DECREES that the terms of
supervised release described in such judgment signed by Judge
Lodge on June 16, 2009, be, and are hereby, revoked; and
The court further ORDERS, ADJUDGES, and DECREES that
defendant, be, and is hereby, committed to the custody of the

3

Case 4:16-cr-00100-A Document 27 Filed 01/31/19

Page 4 of 4 PageID 135

United States Bureau of Prisons to be imprisoned for a term of 8
months as to each count of the six counts of conviction, to run
consecutively to each other, for a total term of imprisonment of
48 months.
The court further ORDERS, ADJUDGES, and DECREES that
defendant shall remain liable for, and have an obligation to pay,
the full unpaid balance of the $37,806.05 restitution obligation
imposed on him by such judgment signed by Judge Lodge on June 16,
2009.
The defendant is remanded to the custody of the United
States Marshal.
The date of imposition of the sentence provided by this
judgment is January 31, 2019.
SIGNED January 31, 2019.

/-.r··N McBRYDE
nited States Distric

Personal information about the defendant is set forth on the
attachment to this Judgment of Revocation and Sentence.

4

APPENDIX C

Case 1:07-cr-00296-EJL Document 35 Filed 06/16/09 Page 1 of 8
Case 4:16-cr-00100-A Document 2 Filed 05/06/16 Page 10 of 17 PageID 11

19-10146.16

Case 1:07-cr-00296-EJL Document 35 Filed 06/16/09 Page 2 of 8
Case 4:16-cr-00100-A Document 2 Filed 05/06/16 Page 11 of 17 PageID 12

19-10146.17

Case 1:07-cr-00296-EJL Document 35 Filed 06/16/09 Page 3 of 8
Case 4:16-cr-00100-A Document 2 Filed 05/06/16 Page 12 of 17 PageID 13

19-10146.18

Case 1:07-cr-00296-EJL Document 35 Filed 06/16/09 Page 4 of 8
Case 4:16-cr-00100-A Document 2 Filed 05/06/16 Page 13 of 17 PageID 14

19-10146.19

Case 1:07-cr-00296-EJL Document 35 Filed 06/16/09 Page 5 of 8
Case 4:16-cr-00100-A Document 2 Filed 05/06/16 Page 14 of 17 PageID 15

19-10146.20

Case 1:07-cr-00296-EJL Document 35 Filed 06/16/09 Page 6 of 8
Case 4:16-cr-00100-A Document 2 Filed 05/06/16 Page 15 of 17 PageID 16

19-10146.21

Case 1:07-cr-00296-EJL Document 35 Filed 06/16/09 Page 7 of 8
Case 4:16-cr-00100-A Document 2 Filed 05/06/16 Page 16 of 17 PageID 17

19-10146.22

Case 1:07-cr-00296-EJL Document 35 Filed 06/16/09 Page 8 of 8
Case 4:16-cr-00100-A Document 2 Filed 05/06/16 Page 17 of 17 PageID 18

19-10146.23

